                                       NATIONAL SCIENCE FOUNDATION
                                        OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS


                                  CLOSEOUT MEMORANDUM

Case Number: A07090050                                                         Page 1of 1



    We were informed about the overlap between the PI'S proposal' and research
    already funded by NSF (the grant).2 Multiple reviewers commented on the
    similarity of the proposal to the grant, with particular attention paid to a scientist
    who was collaborating with both groups and whose hypothesis both groups are
    interested in testing. The scientist is listed a s a collaborator in the grant and in the
    proposal, and the scientist's CV in the proposal lists the PIS of the grant a s his
    collaborators.
    The existence of some specific research does not prohibit anyone from submitting
    proposals to conduct similar research, expand the original research, or even
    replicate it, including doing so with some of the same collaborators. We conclude
    the P I did not act unethically and is not in violation of NSF's research misconduct
    policy. Accordingly, this case is closed.




         1   Footnote redacted.
         2   Footnote redacted.
